                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                       Compliance Followup Review of
                                     Consulate General Hong Kong, China


                                             Report Number ISP-C-12-29A, May 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOWUP REVIEW

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors.

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the
Broadcasting Board of Governors, and Congress with systematic and independent evaluations of
the operations of the Department and the Broadcasting Board of Governors. Compliance
followup reviews (CFR) cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

        In conducting this CFR, the inspectors have: 1) reviewed the previous inspection report and
the reported corrective actions; 2) distributed survey instruments to inspected entity(s) and
compiled and analyzed the results to measure and report changes in the period between the
previous inspection and this CFR; 3) conducted on-site interviews and reviewed and collected
documentation to substantiate reported corrective actions; 4) addressed new, significant
deficiencies or vulnerabilities identified in the CFR survey results and during the course of the on-
site CFR and, where appropriate, issued new recommendations; and, 5) discussed the substance of
the draft CFR report substance of the draft CFR report at the final meeting with the head of the
inspected bureau/office or post.


                                           i
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                               Table of Contents
Key Judgments                                                      1
Background                                                         3
Evaluation of Compliance                                           4
Executive Direction                                                5
Economic/Political Section                                         6
Public Affairs Section                                             8
Law Enforcement                                                    9
Resource Management                                               10
   General Services                                               12
   Facilities                                                     12
Consular Section                                                  14
Information Technology                                            17
List of Compliance Followup Review Recommendations                18
Principal Officials                                               20
Abbreviations                                                     21
APPENDIX I: Status of 2010 Inspection Formal Recommendations      22
APPENDIX II: Status of 2010 Inspection Informal Recommendations   27




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The OIG compliance followup review (CFR) team found that Consulate General Hong Kong
    had complied with all of the formal and informal recommendations from the 2010 inspection.

•   Consulate General Hong Kong remains well coordinated and highly effective in the pursuit
    of its three principal objectives: supporting autonomy and democratic development for Hong
    Kong and Macau; working with local authorities to counter terrorism, crime, and drugs; and
    fostering trade and investment. The consul general and the deputy principal officer provide
    clear and highly respected leadership.

•   Consulate General Hong Kong continues to provide unique and valued perspectives on
    developments in China, and changes in the political environment on the mainland are likely
    to increase the importance of reporting from Hong Kong. Given staffing reductions that have
    already occurred and others that are imminent, any further reductions in the combined
    economic/political section are not advisable.

•   The undiminished importance of Hong Kong as a transportation, financial, and services hub
    continues to justify the attention and presence of U.S. law enforcement agencies. Under the
    leadership of the consul general, cooperation and coordination among the seven resident
    agencies is excellent.

•   Consulate General Hong Kong has rightly focused more systematic attention on Macau,
    where a rapidly expanding gaming and tourism industry has also created opportunities for
    illicit activities.

•   In addition to its public outreach to the sophisticated and receptive population in Hong Kong,
    the public affairs section makes cost-effective use of social media and traditional media to
    reach a potentially huge audience in China. There is both potential and justification for an
    expanded public diplomacy effort.

•   The consular section, with its very experienced and competent staff, provides excellent
    customer service. Given the highly qualified nonimmigrant visa applicant pool, a declining
    immigrant visa workload, and low levels of fraud, the consulate general needs to ensure that
    staffing levels do not exceed what is necessary for the workload.

•   A rigorous right-sizing exercise, led by the front office, resulted in significant reductions to
    an already lean staff. Anticipated budget constraints in Washington will likely moderate
    requests for further growth for most agencies, but not all. Overall, the OIG team believes
    staffing levels are where they should be; any further reductions in Department of State
    (Department) staffing would compromise the consulate general’s ability to oversee and
    support the large other-agency presence. In this regard, because of changes in the
    information technology environment, OIG recommends that the consulate assess whether a
    recently eliminated position in the information management unit should be restored.


                                            1
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


•   The locally employed (LE) staff is both loyal and professional. However, approximately 60
    percent of the employees are faced with a salary cap and have not received any adjustment in
    pay since 2007. (b) (5)


•   In light of recommendations in the 2010 inspection report, Consulate General Hong Kong is
    implementing plans to make use of office space that had been vacant, with significant
    savings for the U.S. Government.

•   The current practice of designating positions in the consular section in Hong Kong for
    officers with Mandarin language ability does not make good use of the Department State’s
    (Department) substantial investment in language training.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.




The CFR took place in Washington, DC, between January 4 and February 1, 2012, and in Hong
Kong, China, between February 24 and March 5, 2012. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Background
        As was documented in the 2010 inspection report, Hong Kong remains a major
transportation, commercial, and financial hub with high importance for American interests.
Hong Kong continues to provide a unique window into political and economic developments in
China. It also serves as a bellwether for China’s attitudes and intentions with regard to the
evolution of democratic institutions and practices for the country as a whole. There has been no
suggestion that Beijing might back away from its 2007 agreement to permit democratic elections
for the Hong Kong chief executive in 2017 and for the Legislative Council in 2020; but there is
concern that Beijing may employ more subtle and covert means to shape political outcomes in
Hong Kong. The situation bears close watching.

        There has been a significant change in the political climate in China since the time of the
2010 inspection. Beijing has responded nervously to the events that have threatened or brought
down authoritarian regimes across North Africa and the Middle East since early 2011, reflecting
its apparent insecurity about stability in the People’s Republic of China itself. Its concerns have
prompted a tightening of restrictions on speech and press freedoms, notably directed at
democracy and human rights advocates. These developments will almost certainly increase the
importance and value of Consulate General Hong Kong’s unique perspective and reporting, a
point underscored by Secretary Clinton during her visit to Hong Kong last July. They will also
heighten the importance of the consulate general’s public affairs and public diplomacy
capabilities in projecting U.S. views to China and the region, as well as in countering misleading
depictions of U.S. policies and intentions in both the official and private media.

        Beijing’s nervousness has also contributed to its increased sensitivity to the actions and
pronouncements of external actors, notably including the United States. In Hong Kong, this has
been manifested over the past year by a series of complaints emanating from Beijing and its local
representatives, and amplified by the resident pro-Chinese press, concerning the activities of the
U.S. consulate general; many of these criticisms have been directed personally at the consul
general. These developments underscore the importance of demonstrating continued firm support
for our policy of “one country, two systems” and preserving the ability of both Hong Kong and
Macau to chart a course distinct and different from the rest of China.

        Despite these developments, the consulate general has maintained robust cooperation
with Hong Kong authorities on a wide range of economic and commercial matters. That
cooperation also extends to law enforcement issues, including counternarcotics,
counterproliferation, and counterterrorism initiatives that are of high importance to the United
States. The value of these cooperative relationships is unanimously affirmed by representatives
of the seven U.S. law enforcement agencies resident within the consulate general, as well as
those elements of the mission concerned with commerce and finance. The rapidly changing
situation in nearby Macau, which in the past 6 years has replaced Las Vegas as the new global
gaming center, is demanding and receiving increased attention from the consulate general, both
from a business perspective and because of the opportunities being created for illicit activities,
such as money laundering.



                                           3
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
        The CFR team found that Consulate General Hong Kong had complied with all of the
formal and informal recommendations from the 2010 inspection. A CFR automatically closes all
formal and informal recommendations from the inspection, but these may be reopened, revised,
and/or reissued by the CFR, as appropriate.

       Of the 19 formal recommendations in the 2010 Sensitive But Unclassified (SBU) report,
19 were closed by the CFR. Of the 13 informal recommendations in the SBU report, 13 were
closed by the CFR. As a result of the CFR, Recommendation 12 in the SBU report, which
discusses eliminating an information technology position, and which was to be implemented in
summer 2012, has been reissued for review. The classified annex contained six formal
recommendations and four informal recommendations; all were closed by the CFR.




                                         4
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
       At the time of the 2010 inspection, the consul general had only recently arrived. Now
approaching the end of his second year at post, the consul general is well established and
confidently in control of a consulate that rivals many embassies in status, size, and complexity.
Current staffing comprises 123 U.S. direct-hire employees, 22 LE Americans (including eligible
family members), and 186 LE foreign national staff. The annual operating budget for FY 2012 is
$30.1 million.

        With his deputy, who arrived shortly after the 2010 inspection was completed, the consul
general has formed an effective and highly regarded leadership team that has fostered positive
relationships across the mission. Given the presence of 12 separate agencies, the front office has
attached particular importance to information sharing, coordination, and collaboration. To that
end, they have created a selective set of coordinating mechanisms focused on specific functions
and cross-cutting issues. An example is the Macau cluster, which meets regularly to monitor the
rapidly changing situation in Macau and to ensure that all elements of the mission are responding
appropriately to the challenges created by Macau’s rapid growth as a gaming and tourism center.
Without exception, agency representatives give both the consul general and the deputy principal
officer high marks for their active engagement in their issues and their successful efforts to build
a collaborative and collegial working environment.

        Similarly, the front office receives praise for its attentiveness to issues affecting
employee welfare and morale. Both the consul general and the deputy principal officer have been
heavily engaged in efforts to ensure that health, educational, and housing needs are appropriately
addressed. They have been supportive of the very active community liaison office, which also
receives high marks. They have faced a particular challenge in addressing the concerns and
expectations of the LE staff, who since 1998 have received only one, modest pay increase. This
issue is addressed in the Resource Management section of this report. The consul general and
deputy principal officer have embraced their special responsibility for the mentoring and
development of entry-level officers, to include specialists, and have enlisted mid-level managers
in that effort. Looking beyond the official consulate family, the front office has been attentive to
the needs of and its responsibilities toward the 60,000 U.S. citizens resident in Hong Kong and
Macau, as well as the constant flow of tourists and visitors that these twin cities attract.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Economic/Political Section
         The economic/political section skillfully promotes two of the consulate’s three key goals
regarding the promotion of democracy and support for U.S. business. Washington observers are
interested in steps that the Hong Kong Government may take towards full democracy as the
reversion to Chinese control in 2047 draws nearer. Hong Kong is one of the most open
economies in the world and imports a considerable volume of products and services from the
United States. It also serves as an air and sea transshipment hub for further exports to China and
elsewhere, invests directly or operates as a financial hub for considerable Chinese foreign
investment in the United States, and acts as a major world financial center, including for budding
efforts to internationalize the Chinese currency. Hong Kong has sophisticated science activities
and works closely with the United States in the World Trade Organization and the Asia Pacific
Economic Conference to promote freer global markets.

         The consulate general’s primary role as a reporting center for economic and political
activities in China has diminished considerably over the years as the U.S. diplomatic and private
media presence has grown in China. Concurrently, the number and ranks of reporting officers in
the consulate’s economic/political section have declined over the years, including the elimination
of a permanent political officer position in 2007, which the section counteracted partially by
seeking exchanges from other agencies or Professional Associate program positions. One current
Professional Associate position will terminate upon the departure of the incumbent (separate
from similar positions in the public affairs and management sections).

        As part of the Diplomacy 3.0 effort to increase the number of officers worldwide, two
entry-level positions were created in the economic/political section before the 2010 inspection.
The OIG inspection team at that time recommended that the two positions be eliminated, which
the consulate general resisted. The OIG recommendation to eliminate the two positions was
previously closed for acceptable nonimplementation. In late January 2012, the Bureau of East
Asian and Pacific Affairs decided that one of the two positions should be transferred to Embassy
Myanmar to support the ongoing liberalization there. The economic unit incumbent had already
departed the consulate general at the time of the CFR and will not be replaced. The consulate
general decided that the entry-level political officer position should be retained because of the
smaller permanent staff in the political unit compared with the economic unit and the importance
of the political officer’s human rights portfolio.

       The section provides valuable reporting on economic and political developments in Hong
Kong, particularly as they relate to the attempts by the Government of the People’s Republic of
China to influence these developments. The tightening of Chinese restrictions on mainland
freedoms since the Arab Spring has increased the importance of reporting from Hong Kong. In
addition, Washington analysts told the OIG team that they appreciated and valued the consulate
general’s still important and at times unique role in providing insights into developments on the
Chinese mainland. These insights included access in Hong Kong to symposiums,
nongovernmental organizations, religious organizations, high-quality academic centers, and
businesses that closely track developments in China; the willingness of Chinese contacts to speak
more freely while in Hong Kong; and other advantages. Given these factors, and the already bare
bones permanent staffing in the economic/political section, the OIG team believes that the

                                          6
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Diplomacy 3.0 entry-level political officer position should remain. The elimination of this
position would diminish the ability of the section to perform its work.




                                          7
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Public Affairs Section
       The public affairs section conducts an effective outreach program on a low-cost budget in
comparison to the sophisticated audience in Hong Kong/Macau and the potentially huge
secondary market in mainland China. The total annual operating budget since FY 2009 has held
steady near $1.7 million. Working with the consul general, the section promotes U.S. views on
democracy, freedom of press, judicial independence, and stronger rule of law.

        A public affairs officer position was eliminated in 2007, leaving just two officers. A
Professional Associate position was created in early 2009. That position, which was
recommended for elimination in the 2010 inspection report, will terminate when the incumbent
departs Hong Kong in 2013. As foreshadowed in the 2010 inspection, the public affairs section
in October 2010 received an entry-level officer position, which helped improve the section’s
social media platforms and, in turn, increased the penetration of U.S. policy messages and
outreach mainly to Hong Kong/Macau and secondarily to China. The entry-level position will
continue when a new officer arrives later in the summer of 2012.

        The Information Resource Center was restructured to become the information outreach
unit, with titles and position descriptions of staff changed accordingly. The section has also
worked hard to improve contacts with alumni from its International Visitor, Fulbright, and other
exchange programs, and to publicize community outreach efforts during U.S. Navy ship visits.
The section works closely with Hong Kong media, much of which has access to the Chinese
mainland as well, particularly the Phoenix television network with 200 million terrestrial and
cable viewers in China and elsewhere.

        The section received praise for its efforts to support Secretary Clinton’s major economic
policy speech in July 2011; Hong Kong was chosen as a platform for the speech given the
amount of local, regional, and global media coverage a Hong Kong venue can generate.

         Given the Chinese tightening of restrictions on Internet content in the past few years
(reflected by Google’s departure from the mainland to Hong Kong), as well as increasing
Chinese restrictions in the past year of speech and press freedoms on the mainland since the Arab
Spring, the consulate general’s public affairs and public diplomacy capabilities in projecting U.S.
views to the huge potential audience in China and the region have become more important but
could be expanded. Current staffing in the section reflects the Hong Kong audience and not the
1.3 billion people in China.

Recommendation CFR 1: Consulate General Hong Kong, in coordination with the Bureau of
East Asian and Pacific Affairs, the Bureau of Human Resources, and the Under Secretary for
Public Affairs and Public Diplomacy, should review the current level of budgeting and staffing
for public diplomacy activities in the consulate with a view to enhancing its Chinese language
platform to reach the mainland. (Action: Consulate General Hong Kong, in coordination with
EAP, DGHR, and R/PPR)

       A separate memorandum will discuss the Voice of America’s operations in Hong Kong.


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Law Enforcement
        One of the consulate’s key goals is law enforcement cooperation. Several U.S. law
enforcement agencies, plus relevant specialized units of other U.S. executive agencies, conduct
regional activities from Consulate General Hong Kong. Local Hong Kong law enforcement
agencies are professional and cooperate with U.S. agencies. Most U.S. agencies in Hong Kong
cover activities in Macau and Taiwan as well. The explosion in casino gaming and tourism
activities in Macau, with major U.S. investments, increases the potential for illicit activities. The
Macau Government accepts training from U.S. agencies to improve its law enforcement
capabilities.

        The consulate general conducts useful biweekly law enforcement committee meetings
chaired by the consul general and attended by the deputy principal officer. Other opportunities
for law enforcement cooperation include country team meetings and regular coordination
meetings regarding Macau. Cooperation and coordination among the agencies is excellent and
commendable.




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



Resource Management
                                                   U.S.
                                                            Eligible
                                                  Direct-               LE     Total    Funding
                       Agency                                Family
                                                   Hire                Staff   Staff    FY 2011
                                                            Members
                                                   Staff
Diplomatic and Consular Programs                       36          2      8      46     $5,324,952
ICASS                                                  7          12     70      89     $7,772,900
Diplomatic Security                                    3                  2        5     $671,169
Bureau of Overseas Buildings Operations                1                           1    $3,917,950

Overseas Buildings Operations - Project                                                   $77,193
Public Diplomacy                                       3           1     15      19     $1,214,527
Public Diplomacy Representation                                                            $7,500
Consular                                              10           2     35      47      $215,810
State Representation                                                                      $37,375
State Marine Security Guard Support                    6                           6      $68,500
Publication Translation Section                        2                 13      15     $1,413,900
Broadcasting Board Governors Affiliates                                   2        2     $273,545
Subtotal - State Department                           68          17    145     230    $20,995,321


Foreign Agriculture Service                            1                  5        6     $653,120
Department of Commerce, Bureau of Industry
                                                       1                  1        2     $136,520
and Security
Foreign Commercial Service                             2           1     10      13     $1,354,334
Department of Homeland Security
   U.S. Secret Service                                 2                  3        5     $698,100
   Immigration and Customs Enforcement                 5                  6      11     $1,543,033
   Customs and Border Protection (International
                                                       1                  1        2     $286,890
   Affairs)
Customs and Border Protection (Container
                                                       4                  1        5     $559,592
Security)
Department of Defense
   Office of Liaison Affairs                          11                  3      14     $1,728,550
   Naval Contracting Office                            7                  6      13     $1,157,197

                                            10
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Department of Justice
   Drug Enforcement Administration                     7                  1       8      $131,968
   Federal Bureau of Investigation, Legal
                                                       3                          3      $544,350
Attaché Office
   Treasury-Internal Revenue Service                   2                  1       3      $350,000
Subtotal Other Agency                                 46           1     38      85    $9,143,654


Total                                                114          18    183     315   $30,138,975

        The consulate general’s International Cooperative Administrative Support Services
(ICASS) platform gets good reviews from all agencies at post. None of the agencies raised any
issues with regard to the ICASS council, the budget development, cost of services, or services
provided. Management is focused on improving customer service and transparency. Steps to date
have had a positive impact on the consulate general’s operations. The management team has
employed eServices, Integrated Logistics Management System (ILMS), and the procurement
module of ILMS (Ariba) to improve internal controls while enhancing oversight and quality
control. The most recent ICASS customer survey scores reflect overall customer satisfaction.
The management section has addressed all of the recommendations, both formal and informal,
from the 2010 Inspection.

         The consulate general also has embarked on an energy efficiency program that has
already reduced its electrical bills by approximately $70,000 per year, through a combination of
tariff negotiations, real-time meters, and monthly usage reports. They are also reviewing motor
pool operations and telephone usage.

        There are three main issues critical for maintaining good morale among American
employees – housing, schools, and family member employment. The consulate’s housing board
has been very active and responsible in addressing individuals’ needs. The OIG team addresses
issues related to the recent renovations of the Shouson Hill apartments later in this report and
makes recommendations to correct the problems. All of the international schools are fully
subscribed, and attendance is highly competitive, which presents a challenge for those with
school-age children. The consulate general has taken a proactive posture and works with families
well in advance of their arrival. Family member employment is also problematic. The consulate
general has hired 19 eligible family members, but that is only a third of the number of spouses
seeking work. The community liaison office coordinator has actively reached out to placement
firms and made every effort to facilitate employment opportunities.

        LE staff members are professional, committed, and talented. Their last salary adjustment
took place in 2007. Since that time, the Consumer Price Index reflects an increase in costs for
food and housing of 13.5 percent and 17.4 percent respectively. There is a widespread view
among LE staff members that their buying power has been significantly eroded during this
period. (b) (5)




                                          11
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


      General Services

              The general services office is well managed and provides proper support to its ICASS
      customers. The section has a problem, however, due in part to the longevity of many of the
      senior LE staff members, who have developed unique and irregular practices over the years,
      creating the possibility for risk due to a lack of management controls. The section has been
      understaffed for years, which contributed to the problem and made it difficult for the section to
      establish proper checks and balances. The impending departure of the Professional Associate,
      who is an assistant general services officer serving as the contracting and procurement officer,
      will add to the difficulty of overseeing the general services staff and will further reduce the
      section’s ability to establish proper management controls.

      Recommendation CFR 2: Consulate General Hong Kong should request authority from the
      Bureau of East Asian and Pacific Affairs to establish and recruit an eligible family member for
      the position of assistant general services officer. (Action: Consulate General Hong Kong)
(b) (5)




      Recommendation CFR 3: (b) (5)




      Facilities

             The consulate general’s preventative maintenance combined with adequate funding from
      the Bureau of Overseas Buildings Operations has ensured the proper upkeep of both the
      consulate office building and the government-owned properties. A number of the utility systems,
      such as heating, ventilation, and air conditioning, servicing the consulate office building are
      approaching their replacement cycle. However, due to the professionalism of the facilities
      management team, the systems are currently functioning adequately.

   (b) (5)




                                                12
                                    SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

(b) (5)




    Recommendation CFR 4: (b) (5)



    Recommendation CFR 5: (b) (5)




    Recommendation CFR 6: (b) (5)


    Salary and Benefits for Locally Employed Staff

            The OIG team was impressed by the professionalism and loyalty of the LE staff. The
    average length of service of the LE staff employed by the consulate general is currently 16.6
    years. Fifty-six percent of the LE staff faces a cap in pay due to longevity in grade. In addition,
    the LE staff has not received a significant salary increase since 1998 with only one small raise
    (1.5 percent for FSN 7-12s and 2 percent for the lower grades) in 2007.

            The results of the Watson Wyatt survey to date have not supported a salary increase.
    However, a review of the Consumer Price Index reflects that costs for basic foodstuffs and
    housing have risen 13 percent and 17.4 percent, respectively, significantly eroding buying power
    of the LE staff’s salary. The OIG team met with LE staff members and was impressed by their
    maturity in the face of the current situation. (b) (5)


                          In the meantime, the consulate’s senior management needs to continue to
    employ creative methods to acknowledge the professional performance and loyalty of its staff.

    Recommendation CFR 7: Consulate General Hong Kong, in coordination with the Bureau of
    Human Resources, should conduct a salary and benefits survey for the locally employed staff.
    (Action: Consulate General Hong Kong, in coordination with DGHR)




                                              13
                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Consular Section
        The consular section continues to provide all consular services in an efficient, customer-
friendly manner. For FY 2011, the workload included approximately 8,000 passport
adjudications, 3,600 immigrant visas, 65,000 nonimmigrant visa applications, 900 consular
reports of birth abroad, and 170 renunciations. Most nonimmigrant visa applicants are qualified,
and the consulate general’s issuance rate exceeds 95 percent. The long-term trend reflects that
the immigrant visa workload is decreasing.

        Consular officials report excellent cooperation with local officials. One area of concern to
the inspection team in 2010 was a lack of notification by officials in Macau when U.S. citizens
were arrested. This has been corrected, and consulate officials report they now receive prompt
notification of arrests.

        The positions that were recommended for grade reductions have either been reduced
(Recommendation 7), or agreement was reached to downgrade the position when the person
already assigned departs post (Recommendation 8). Hong Kong is not a high fraud post, nor is
there a significant terrorism threat at post. Nevertheless, the Department, OIG, and the consulate
general agreed that the assistant regional security officer – investigations position could be filled,
and an officer is scheduled to arrive in September 2012. The consulate general staff believes that
another law enforcement position will be useful, particularly one that is focused on consular
section needs, and plans are under way to assign tasks to him when he arrives.

        The consulate general also addressed the management control issues identified in the
2010 report. However, one of the backup cashiers does not have his own safe for storing his
advance, as required by the Foreign Affairs Handbook (FAH) in 4 FAH-3 H-393.4-3 d. This
could lead to others having access to his cash advance, resulting in a loss of funds without
knowing who was accountable.

Recommendation CFR 8: Consulate General Hong Kong should provide a separate safe
drawer with a separate combination for the second backup consular cashier. (Action: Consulate
General Hong Kong)

        An untenured entry-level officer is serving as accountable consular officer. According to
7 FAH-1 H-733.1 d., these duties should normally be given to an experienced consular officer
rather than an untenured one. There are currently three tenured officers who could serve as
accountable consular officer, thus ensuring that an officer with more experience is able to
oversee this vital function.

Recommendation CFR 9: Consulate General Hong Kong should designate a tenured officer as
the accountable consular officer. (Action: Consulate General Hong Kong)

        Workload has changed in the fraud prevention unit. Managers discontinued a practice of
prescreening nonimmigrant visa applicants because it was of limited value. As noted earlier,
immigrant visa workload has declined, which affects the workload for both the immigrant visa
unit and the fraud prevention unit. Immigrant visa adjudications in 2011 were less than half of

                                           14
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the adjudications in 2002. The overall trend is downward, but the number of nonadjudicator
hours has not decreased as much as the workload has decreased. For example, the OIG team
noted that in FY 2006 the immigrant visa unit adjudicated 5,569 immigrant visas with 12,631
nonadjudicator hours. In 2011, the number of nonadjudicator hours was essentially the same
(12,832) even though the adjudication load dropped by almost 2,000 cases. The consulate
general noted some complicating factors in 2011: staff spent extra time dealing with applicants
whose cases were in progress, but no visas were available because numbers had retrogressed and
70 percent of interviews required the use of interpreters. Nevertheless, the inspectors believe
both the fraud prevention unit, which deals primarily with immigrant visa cases, and the
immigrant visa unit are overstaffed given the declining workload and when compared with other
posts. The third position in the fraud prevention unit should likely have duties that consist of
both fraud prevention and immigrant visa work.

Recommendation CFR 10: Consulate General Hong Kong should abolish a total of two locally
employed staff positions in the immigrant visa and fraud prevention units. (Action: Consulate
General Hong Kong)

        Four officers assigned to the consular section were trained in Mandarin, and two officers
who already spoke some Mandarin received additional training. Consular officers serving in
Hong Kong report that few visa applicants speak Mandarin. Officers indicated that they can use
English for most interviews, although applicants’ level of English proficiency varies. They use
Cantonese (using an interpreter) 10-12 percent of the time, although the one officer who was
trained in Cantonese uses it for roughly half of his interviews. Mandarin is used in approximately
5 percent of the cases. The criteria for designating language study for a particular position
according to the Foreign Affairs Manual (FAM) in 13 FAM 221 b. is that only those positions
where language proficiency is essential, rather than merely helpful or convenient, should be
designated.

        Language training should provide officers with the particular language skills needed to
adequately perform their job. The OIG team agrees with post that one Cantonese speaker is
needed. One possibility to fill such a position could be through the limited noncareer
appointment program recently instituted to find Chinese and Portuguese speakers to staff
positions in China and Brazil.

Recommendation CFR 11: The Bureau of East Asian and Pacific Affairs, in coordination with
the Bureau of Consular Affairs and the Bureau of Human Resources, should designate a consular
position in Consulate General Hong Kong as a Cantonese language position. (Action: EAP, in
coordination with CA and DGHR)

         The OIG team believes it is not a good use of Department resources to train officers in
Mandarin for consular assignments in Hong Kong. Officers indicate that even though they have
received language training in Mandarin, they rarely use it and their language skills in Mandarin
actually decrease from lack of use. Given that most entry-level officers receive onward
assignments outside the region because of the Bureau of Human Resources desire to give entry-
level officers geographic diversity in assignments, they will not have a chance to use Mandarin
in their next assignment. Although the Department has an interest in creating a cadre of
Mandarin speakers, the current practice of training consular officers in Mandarin, giving them an
                                         15
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

assignment where Mandarin is not required for conducting day-to-day business and is rarely
used, then assigning them to another non-Mandarin speaking position undermines the stated goal
of this policy. Providing 30 weeks of Mandarin training to officers costs the Department
approximately $100,000 per student.

Recommendation CFR 12: The Bureau of East Asian and Pacific Affairs, in coordination with
the Bureau of Consular Affairs and the Bureau of Human Resources, should change the
Mandarin language-designated positions to language-preferred positions in the consular section
in Hong Kong. (Action: EAP, in coordination with CA and DGHR)




                                        16
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information Technology
        The total number of personnel in the information program center consists of one direct-
hire information systems officer and seven LE staff members. The information program center
consists of three direct-hire employees, two eligible family members working classified pouch,
two telephone operators, and six LE staff members working in the unclassified pouch and the
mailroom. In addition, the information program center currently supports 280 users and 400
computers. They provide maintenance to seven unclassified servers and three classified servers.

        The OIG inspection conducted in June 2010 recommended abolishing information
management specialist position number 55-329000. The consulate general concurred and took
appropriate action. Upon reviewing the compliance actions regarding this recommendation, the
OIG team was supplied with additional data and discovered compelling justification to initiate a
review of the need for this position. The individual currently serving in the position slated for
abolishment is responsible for a 100-piece computer security account, primary management of
the classified and unclassified pouch (includes Embassy Beijing and constituent posts),
management of the telephone operators, help desk support for computers in the controlled access
areas, and assisting with life cycle replacement. He also provides support to the Office of Liaison
Assistance, the Legal Liaison Office, and the Drug Enforcement Administration. Additional
information regarding this position is in the classified annex to this report.

Recommendation CFR 13: Consulate General Hong Kong, in coordination with the Bureau of
East Asian and Pacific Affairs, the Bureau of Information Resource Management, and the
Bureau of Human Resources, should conduct a review to determine the effects of abolishing
information management specialist position number 55-329000 and, if the effects are
detrimental, retain the position. (Action: Consulate General Hong Kong, in coordination with
EAP, IRM, and DGHR)




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Compliance Followup Review Recommendations
Recommendation CFR 1: Consulate General Hong Kong, in coordination with the Bureau of
East Asian and Pacific Affairs, the Bureau of Human Resources, and the Under Secretary for
Public Affairs and Public Diplomacy, should review the current level of budgeting and staffing
for public diplomacy activities in the consulate with a view to enhancing its Chinese language
platform to reach the mainland. (Action: Consulate General Hong Kong, in coordination with
EAP, DGHR, and R/PPR)

Recommendation CFR 2: Consulate General Hong Kong should request authority from the
Bureau of East Asian and Pacific Affairs to establish and recruit an eligible family member for
the position of assistant general services officer. (Action: Consulate General Hong Kong)

Recommendation CFR 3: (b) (5)




Recommendation CFR 4: (b) (5)



Recommendation CFR 5: (b) (5)




Recommendation CFR 6: The Bureau of Overseas Operations should seek redress from the
contractor for poor performance under the Shouson Hill apartment contract. (Action: OBO)

Recommendation CFR 7: Consulate General Hong Kong, in coordination with the Bureau of
Human Resources, should conduct a salary and benefits survey for the locally employed staff.
(Action: Consulate General Hong Kong, in coordination with DGHR)

Recommendation CFR 8: Consulate General Hong Kong should provide a separate safe
drawer with a separate combination for the second backup consular cashier. (Action: Consulate
General Hong Kong)

Recommendation CFR 9: Consulate General Hong Kong should designate a tenured officer
as the accountable consular officer. (Action: Consulate General Hong Kong)

Recommendation CFR 10: Consulate General Hong Kong should abolish a total of two
locally employed staff positions in the immigrant visa and fraud prevention units. (Action:
Consulate General Hong Kong)

Recommendation CFR 11: The Bureau of East Asian and Pacific Affairs, in coordination
with the Bureau of Consular Affairs and the Bureau of Human Resources, should designate a

                                         18
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

consular position in Consulate General Hong Kong as a Cantonese language position. (Action:
EAP, in coordination with CA and DGHR)

Recommendation CFR 12: The Bureau of East Asian and Pacific Affairs, in coordination
with the Bureau of Consular Affairs and the Bureau of Human Resources, should change the
Mandarin language-designated positions to language-preferred positions in the consular section
in Hong Kong. (Action: EAP, in coordination with CA and DGHR)

Recommendation CFR 13: Consulate General Hong Kong, in coordination with the Bureau of
East Asian and Pacific Affairs, the Bureau of Information Resource Management, and the
Bureau of Human Resources, should conduct a review to determine the effects of abolishing
information management specialist position number 55-329000 and, if the effects are
detrimental, retain the position. (Action: Consulate General Hong Kong, in coordination with
EAP, IRM, and DGHR)




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                Name      Arrival Date

Consul General                                         Stephen Young         3/11/2010
Deputy Principal Officer                               Matt Matthews          9/2/2010
Chiefs of Sections:
  Management                                             Andrea Baker        8/16/2010
  Consular                                             Hugh Williams         8/15/2009
  Economic/Political                                   Martin Murphy         7/17/2009
  EXIS                                                   Daniel Harris       7/24/2011
  Public Affairs                                       Joe Bookbinder         8/7/2009
  Regional Security                                      Peter Carlson       7/24/2009
Other Agencies:
  Foreign Agricultural Service                              Erich Kuss        8/3/2010
  Department of Defense                     Capt. Alexander Butterfield       9/5/2009
  Foreign Commercial Service                         Andrew Wylegala         8/14/2008
  Drug Enforcement Agency                             Andrew Malenga        11/22/2009
  Immigration and Customs                                                    5/29/2008
  Enforcement                                             Tatum King
  Internal Revenue Service                            William Cheung          8/3/2009
  Legal Attaché Office                                 Lawrence Futa         2/14/2011
  Customs and Border                                                         7/25/2011
  Protection                                             Robert White
  Ship Support Office                                      David Ross         5/7/2011
  U.S. Secret Service                                    John Johnson        2/16/2005
  Broadcasting Board of
  Governors                                          William Whitacre     Based in U.S.




                                         20
                             SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CFR             Compliance followup review

Department      U.S. Department of State

FAH             Foreign Affairs Handbook

FAM             Foreign Affairs Manual

ICASS           International Cooperative Administrative Support Services

ILMS            Integrated Logistics Management System

LE              Locally employed

OIG             Office of Inspector General

SBU             Sensitive But Unclassified




                            21
                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


APPENDIX I: Status of 2010 Inspection Formal
Recommendations
Recommendation 1: Consulate General Hong Kong should institute regularly scheduled
meetings between post management and the locally employed staff association. (Action:
Consulate General Hong Kong)

Pre-CFR Status: Closed.

CFR Finding: Consulate General held its first meeting on September 28, 2010. It has held
quarterly meeting since then. OIG has a copy of the meeting dates and notes.

Recommendation 2: Consulate General Hong Kong should resume its regular coordination
meetings on economic and commercial issues. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The consulate general held its first economic cluster meeting on October 27,
2010. The consulate initially decided to hold these meetings quarterly but then instituted a
schedule of monthly meetings. The consul general and deputy principal officer chair or attend
the meetings. Relevant agencies consider the meetings useful. The OIG team considers this
recommendation closed due to satisfactory implementation.

Recommendation 3: Consulate General Hong Kong, in coordination with the Bureau
of East Asian and Pacific Affairs, should request, and the Bureau of Human Resources should
approve, the elimination of two entry-level officer positions in the economic and political section
(position numbers 25451014 and 10015442) when the incumbents complete the tours. (Action:
Consulate General Hong Kong, in coordination with EAP and DGHR)

Pre-CFR Status: Closed for acceptable nonimplementation.

CFR Finding: Although the consulate general strongly opposed elimination of these two
positions, the Bureau of East Asian and Pacific Affairs decided in January 2012 that one of these
positions would be move to Myanmar in the summer of 2012. The entry-level economic officer
had already departed the consulate general at the time of the CFR and will not be replaced. The
entry-level political officer position remained at the consulate general at the time of the CFR.
The OIG team decided that Consulate General Hong Kong retains unique and valuable
perspectives on developments in China, that the already much-reduced permanent staffing in the
economic/political section should not decline any further, and that the recommendation should
be closed for acceptable compliance.

Recommendation 4: Consulate General Hong Kong should authorize the chief of the economic
and political section to review and release most cable traffic without first obtaining front office
clearance. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



CFR Finding: The consul general has authorized both section chiefs to release cables on their
own. The economic/political section chief stated to the OIG team that he releases most of the
section’s cables on his own authority. The OIG team considers this recommendation closed.

Recommendation 5: Consulate General Hong Kong, in coordination with the Bureau of East
Asian and Pacific Affairs and the Bureau of Human Resources, should remove the language
requirement for economic officer position 20-309000. (Action: Consulate General Hong Kong,
in coordination with EAP and DGHR)

Pre-CFR Status: Closed for acceptable nonimplementation.

CFR Finding: The Executive Office of the Bureau of East Asian and Pacific Affairs submitted
a memorandum to the Director General on July 20, 2011, requesting deletion of the language
designation for this economic officer position. The Director General disapproved the request on
August 12, 2011. The economic/political section stated to the OIG team that it conducts most of
its local business in English, with Mandarin Chinese the second language. The section has little
need to use the local Cantonese language. The OIG team considers this recommendation closed
for acceptable nonimplementation.

Recommendation 6: Consulate General Hong Kong, in coordination with the Bureau of East
Asian and Pacific Affairs and the Bureau of Human Resources, should eliminate professional
associate position number 97-000085 upon the incumbent’s departure. (Action: Consulate
General Hong Kong, in coordination with EAP and DGHR)

Pre-CFR Status: Closed for acceptable compliance.

CFR Finding: The professional associate program requires that any professional associate
position automatically end once the incumbent departs post. The consulate general has three
Professional Associate positions being terminated with the departure of the incumbent. Position
97-000085 is a position in the public diplomacy section that will be vacated during the summer
of 2013 when the incumbent departs post, at which time the position will be eliminated. Since
the inspection, an entry-level officer position in the public affairs section has already been
created and filled to undertake the duties of the eligible family member position. The OIG team
considers this recommendation closed for acceptable compliance. In addition, position numbers
94-000233 and 94-000150 are being eliminated with the departure of the incumbents from the
economic/political section in summer 2013 and from the management section in March 2012,
respectively.

Recommendation 7: Consulate General Hong Kong, in coordination with the Bureau of
Consular Affairs and the Bureau of Human Resources, should change the grade of consular chief
position 30118001 from FE-OC to FS-01. (Action: Consulate General Hong Kong, in
coordination with CA and DGHR)

Pre-CFR Status: Closed implemented.


                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

CFR Finding: The position has been downgraded to an FS-01 position. Closed due to
implementation of the recommendation.

Recommendation 8: Consulate General Hong Kong, in coordination with the Bureau of
Consular Affairs and the Bureau of Human Resources, should change the grade of the immigrant
visa chief position 31392000 from FS-03 to FS-04. (Action: Consulate General Hong Kong, in
coordination with CA and DGHR)

Pre-CFR Status: Closed implemented.

CFR Finding: An FS-03 who was assigned to Afghanistan/Iraq/Pakistan has been assigned to
this position through 2015. However, the Bureau of Consular Affairs agreed that this position
should be downgraded and said it will downgrade the position upon departure of the
Afghanistan/Iraq/Pakistan bidder. This recommendation is closed.

Recommendation 9: Embassy Beijing should establish a regional fraud coordinator at
Consulate General Guangzhou to oversee the fraud prevention program in Hong Kong and
throughout China. (Action: Embassy Beijing, in coordination with Consulate General Hong
Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: Consulate General Guangzhou’s fraud prevention manager has assumed
responsibilities as fraud coordinator for mission China and Consulate General Hong Kong. This
recommendation is closed.

Recommendation 10: Consulate General Hong Kong should rescind its request for an assistant
regional security officer-investigations position. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed for acceptable nonimplementation.

CFR Finding: OIG closed this recommendation based on compliance responses from the
Bureau of Diplomatic Security and informal discussions with the Bureau of Consular Affairs, the
Bureau of Human Resources, and the Bureau of Diplomatic Security. An officer has been
assigned and is scheduled to arrive at post in September 2012. Closed due to satisfactory
compliance.

Recommendation 11: Consulate General Hong Kong should implement procedures in the
human resources section that allow customers to use eServices to submit their own requests and
complete surveys. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The human resources section no longer enters their customers’ requests into
eServices. Unfortunately, due to the technical difficulty encountered by the customers trying to
enter their requests, this aspect of eService is no longer used. The customers now come directly
to the human resources section and ask for appointments. Closed due to satisfactory compliance.
                                         24
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 12: Consulate General Hong Kong should select a Federal Women’s Program
coordinator. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The consulate general selected a Federal Women’s Program coordinator. Closed
due to satisfactory compliance.

Recommendation 13: Consulate General Hong Kong should seek guidance from the Office of
Civil Rights on establishing and implementing an active Federal Women’s Program. (Action:
Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The coordinator did contact the Office of Civil Rights. The consulate general’s
Web site now includes resource and promotional materials regarding this program. Closed due to
satisfactory compliance.

Recommendation 14: Consulate General Hong Kong should administer and assign the five U.S.
Government-owned housing units in accordance with Department guidelines. (Action: Consulate
General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The management officer and the general services officer held a housing board
meeting on September 21, 2010. The board reviewed the guidance provided in 15 FAM 235 with
regard to Barker Road units and all agreed that future assignments would be made in accordance
with the FAM guidance. At this meeting, the board also discussed the proper role of the housing
board in the assignment of interagency housing. The first vacancy in these units will take place
in the summer of 2012, and the chair of the housing board has made it clear that the assignment
will be made strictly in accordance with 15 FAM 235. Closed due to satisfactory compliance.

Recommendation 15: Consulate General Hong Kong should terminate its Shouson Hill shuttle
service, which is based on convenience rather than unavailability of public transportation.
(Action: Consulate General Hong Kong)

Pre-CFR Status: Closed for acceptable nonimplementation.

CFR Finding: The OIG team was given the wrong impression by the consulate general’s motor
pool policy. There is in fact no reasonable alternative to the consulate’s shuttle, and the city bus
officials turned down a request to add a stop at Shouson Hill or add more buses to existing routes
nearby. There is no reliable public transport provided for Shouson Hill. To use public transport,
employees housed at Shouson Hill would have to make two bus transfers and walk a
considerable distance, adding 45 minutes to the commute. Even this would be difficult, because
the initial service is provided by a small minivan that is usually full when it passes Shouson Hill.

                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

The consulate general has continued the shuttle at a cost to the employees commensurate with
public transport costs. Closed due to satisfactory compliance.

Recommendation 16: Consulate General Hong Kong, in coordination with the Bureau of East
Asian and Pacific Affairs and the Bureau of Human Resources, should eliminate position number
55-329000, information management specialist. (Action: Consulate General Hong Kong, in
coordination with EAP and DGHR)

Pre-CFR Status: Closed.

CFR Finding: The consulate general initially concurred with this assessment, but the
recommendation has been revised to review the results of removing this position and, if it is
detrimental to post, consider keeping the position. Revised and reissued.

Recommendation 17: Consulate General Hong Kong should dispose of excess information
management equipment. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The consulate general eliminated all stock that was over 3 years old and has
moved to a policy of maintaining a ratio of 5 percent spare to deployed equipment. Closed due to
satisfactory compliance.

Recommendation 18: Consulate General Hong Kong should submit documentation to the
Bureau of East Asian and Pacific Affairs to justify its continued eligibility for its rest and
recuperation travel benefit. (Action: Consulate General Hong Kong)

Pre-CFR Status: Closed implemented.

CFR Finding: The consulate general submitted a hardship differential report on March 21,
2011. The Department did not reauthorize the previous 5 percent hardship differential. The
Bureau of East Asian and Pacific Affairs, in coordination with the Bureau of Administration, is
conducting a worldwide review of rest and recuperations. The consulate is awaiting a decision
from the Department regarding the continuation of this allowance. Closed due to satisfactory
compliance.

Recommendation 19: The Bureau of East Asian Affairs should update 3 FAH-1 Exhibit H-
3722(3), which lists the posts and designated relief areas for rest and recuperation travel for the
East Asian and Pacific countries. (Action: EAP)

Pre-CFR Status: Closed implemented.

CFR Finding: The Bureau of East Asian and Pacific Affairs has taken the requested action and
designated the relief point for Naha, Japan, to be Sydney, Australia. Closed due to satisfactory
compliance.



                                          26
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



APPENDIX II: Status of 2010 Inspection Informal
Recommendations
Informal Recommendation 1: Consulate General Hong Kong should review whether the public
affairs section is staffed with the appropriate number of locally employed staff, particularly in
comparison with the political and economic section.

CFR Finding: The public affairs section has aggressively developed its social media platform
to maximize the effectiveness and penetration of policy messages in Hong Kong/Macau and
China. Public affairs also expanded its alumni program activities to maximize the value of these
key contacts. The OIG team considers the staffing of the public affairs section to be appropriate.

Informal Recommendation 2: Consulate General Hong Kong should change the designation of
the Information Resource Center staff to reflect current responsibilities.

CFR Finding: The public affairs section has renamed the Information Resource Center as the
information outreach unit and staff titles and position descriptions have been changed
accordingly.

Informal Recommendation 3: Consulate General Hong Kong should establish a training officer
in the consular section to track, support, and enforce required and optional training among all
employees within the section.

CFR Finding: Consulate General Hong Kong has assigned a consular officer to be the training
officer for the section. She is tracking and supporting training. This recommendation is closed.

Informal Recommendation 4: Consulate General Hong Kong should encourage U.S. law
enforcement agencies to remind their Macau counterparts of the importance of consular
notification and to stay alert to information about detained American citizens that could be
conveyed to the consular section.

CFR Finding: Consulate General Hong Kong personnel worked with officials in Macau, and
the consulate general is now notified when American citizens are arrested. This recommendation
is closed.

Informal Recommendation 5: Consulate General Hong Kong should advertise and select a
local employee to become the Equal Employment Opportunity liaison.

CFR Finding: The consulate general advertized and selected the local employee Equal
Employment Opportunity liaison.

Informal Recommendation 6: Consulate General Hong Kong should prepare minutes for its
International Cooperative Administrative Support Services council meetings and publish them on
its SharePoint site.

                                          27
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Finding: The consulate general’s ICASS council has both agendum and minutes prepared
for each meeting. These minutes are prepared by the financial management officer. The minutes
record not only the decisions of the council but the submissions by the financial management
officer for the council as well.

Informal Recommendation 7: Consulate General Hong Kong should develop and implement a
system that relays final payment data to the procurement section for proper close-out of
purchases.

CFR Finding: The consulate is now using Ariba to track final payment date. All agencies are
using this system. There are still problems with Ariba regarding tracking data by appropriation
and obtaining information regarding draws on bulk purchase agreements.

Informal Recommendation 8: Consulate General Hong Kong should conduct a review of its
vehicle and driver assets and take action necessary to align them with mission requirements.

CFR Finding: The consulate performed a review of the motor pool vehicles and their use.
These vehicles are properly used – the regional security office has two vehicles for use in the
surveillance detection unit. There is a vehicle used by public affairs that was transferred from the
office of liaison administration, used primarily for delivery activity. The fourth multiuse vehicle
had been a designated vehicle for the deputy principal officer but is now used in the motor pool.

Informal Recommendation 9: Consulate General Hong Kong should correct erroneous data on
its vehicles in the Integrated Logistics Management System.

CFR Finding: The consulate has verified that the FY 2011 vehicle inventory report is correct.

Informal Recommendation 10: Consulate General Hong Kong should take steps to ensure that
the new U.S. direct-hire information management supervisor resolves interpersonal conflicts in
the section.

CFR Finding: Officer in question has departed post.

Informal Recommendation 11: Consulate General Hong Kong should post inventory spot-
check results to property records as required by 14 FAH-1 H-413.2.

CFR Finding: The consulate’s management section has performed inventory spot checks and
continues to perform these checks at least twice a year. These checks are done both at the
warehouse and at the point of delivery. The OIG team reviewed the record of these spot checks.

Informal Recommendation 12: Consulate General Hong Kong should establish a regular
schedule for the back-up consular cashiers to serve as consular cashier once a month. Each back-
up cashier should have an individual cash advance.

CFR Finding: Consulate General Hong Kong has an established schedule so that each backup
cashier serves as consular cashier once a month. Each backup cashier has his or her own cash
advance, but one does not have a safe drawer for his cash box that he only he has access to.
                                          28
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

This recommendation is closed, but a recommendation is made in the report to secure a separate
safe for the backup cashier.

Informal Recommendation 13: Consulate General Hong Kong should conduct fee collection
comparisons as required in 7 FAH, H-744.

CFR Finding: The accountable consular officer is conducting the fee collection comparisons,
although the machine-readable visa fee comparisons were done on a monthly basis. She will
begin doing these on a weekly basis. This recommendation is closed.




                                        29
                            SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
